<html>
<title> - PROTECTING SCHOOL AGE ATHLETES FROM SPORTS-RELATED CONCUSSION INJURY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
  PROTECTING SCHOOL AGE ATHLETES FROM SPORTS-RELATED CONCUSSION INJURY

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 8, 2010

                               __________

                           Serial No. 111-153


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
78-130                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f7908798b7948284839f929b87d994989ad9">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                         Subcommittee on Health

                FRANK PALLONE, Jr., New Jersey, Chairman
JOHN D. DINGELL, Michigan            NATHAN DEAL, Georgia,
BART GORDON, Tennessee                   Ranking Member
ANNA G. ESHOO, California            RALPH M. HALL, Texas
ELIOT L. ENGEL, New York             BARBARA CUBIN, Wyoming
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              STEVE BUYER, Indiana
LOIS CAPPS, California               JOSEPH R. PITTS, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MARY BONO MACK, California
TAMMY BALDWIN, Wisconsin             MIKE FERGUSON, New Jersey
MIKE ROSS, Arkansas                  MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   JOHN SULLIVAN, Oklahoma
JANE HARMAN, California              TIM MURPHY, Pennsylvania
CHARLES A. GONZALEZ, Texas           MICHAEL C. BURGESS, Texas
JOHN BARROW, Georgia
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     1
Hon. Bill Pascrell, a Representative in Congress from the State 
  of New Jersey, opening statement...............................     3

                               Witnesses

Vikas Kapil, Associate Director for Science, Division of Injury 
  Response, National Center for Injury Prevention and Control, 
  Centers for Disease Control and Prevention, United States 
  Department of Health and Human Services........................     5
    Prepared statement...........................................     8
Nikki Popyer, Senior, Marlboro High School, Marlboro, New Jersey.    19
    Prepared statement...........................................    22
Joanna Boyd, Public Education Coordinator, Brain Injury 
  Association of New Jersey......................................    24
    Prepared statement...........................................    27
Mike Prybicien, M.A., A.T.C., C.S.C.S., Head Athletic Trainer, 
  Passaic High School, Passaic, New Jersey.......................    31
    Prepared statement...........................................    34
Joel Brenner, M.D., M.P.H., F.A.A.P., Medical Director, Sports 
  Medicine Program, Childrens Hospital of the Kings Daughters....    39
    Prepared statement...........................................    42
Roman Oben, NFL Player for the New York Giants, Cleveland Browns, 
  Tampa Bay Buccaneers, and San Diego Chargers, 1996-2008........    53


  PROTECTING SCHOOL AGE ATHLETES FROM SPORTS-RELATED CONCUSSION INJURY

                              ----------                              


                      WEDNESDAY, SEPTEMBER 8, 2010

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:00 p.m., at 
the Fire Lounge, Prudential Center, Newark, New Jersey, Hon. 
Frank Pallone, Jr., [chairman of the subcommittee] presiding.
    Present: Representatives Pallone and Pascrell.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. I call the meeting of the Health Subcommittee 
to order, and today we're having a hearing on Protecting 
School-Aged Athletes from Sports-Related Concussion Injury.
    Before we proceed I do want to ask the unanimous consent to 
have Congressman Bill Pascrell participate as a member of the 
Subcommittee for this hearing. Without objection so ordered. 
There's no one to object but me, so we don't really have a 
problem.
    I'll initially recognize myself for an opening statement.
    Today, as I said, the Health Subcommittee will be having a 
hearing on Protecting School-Aged Athletes from the Sports-
Related Concussion Injury. Obviously, we're bringing our work 
to a field hearing in my home state of New Jersey here at the 
Prudential Center, which is the home of the New Jersey Devils. 
I would like to point out, and I'm saying this for Bill's 
purpose as well, this is the first and only field hearing that 
the Health Subcommittee has had in this Congress, just so you 
know.
    The hearing will include testimony on Mr. Pascrell's Bill, 
H.R. 1347, the Concussion Treatment and Care Tools act of 2009. 
I'd like to briefly thank our witnesses for being here today. 
We're going to have two panels. Dr. Vikas Kapil will be on the 
first panel and then we'll have a second one. I know that some 
of the panels have traveled quite a distance and had to battle 
New Jersey traffic, which is not an easy feat. I only had to 
battle getting into the building. I was actually here on time, 
but we had to go to the other end of the building to get in. 
But regardless, I want to thank you and I appreciate the fact 
that the witnesses are here and, obviously, we look forward to 
your testimony.
    I wanted to especially recognize Nikki Popyer, I hope I 
pronounced it right, who is a senior at Marlboro High School in 
my district. Nikki will share her personal story in dealing 
with sports concussions. In addition, I want to welcome former 
New York Giants offensive tackle Roman Oben, I hope I'm 
pronouncing it properly, who I know is a friend of Bill 
Pascrell's and who brings a unique perspective to this 
discussion.
    A concussion, as we know, is a type of brain injury that 
changes the way the brain normally works. It doesn't take a 
medical degree to know that this type of injury can be a 
serious one for young people whose brains are still developing. 
I think all the witnesses before us today will discuss in 
different ways how concussions have the potential to cause a 
host of physical and emotional burdens, affecting child's 
developmental, social and academic life.
    Concussions are one of the most commonly reported injuries 
among the nearly 38 million children and adolescents that 
engage in organized youth sports and recreation activities in 
the United States. In fact according, to the Center for Disease 
and Prevention, CDC, each year U.S. Emergency departments treat 
an estimated 135,000 sports-and-recreation related traumatic-
brain injuries among children ages 5 to 18. Furthermore there 
is an increased risk for subsequent concussions among athletes 
that experienced a previous concussion.
    Of the sport-related concussion injuries seen in the 
emergency rooms, approximately 65 percent occur among youth 
aged 5 to 18--a significant statistic that demonstrates the 
importance of today's hearing. What's alarming, however, is a 
recent report conducted by Brown University Medical School that 
states emergency room visits by kids suffering from concussion 
while playing sports have more than doubled in recent years. 
The numbers, accordingly, immediately prompted an updated 
report by the American Academy of Pediatrics on concussion 
identification and treatment for children.
    As a parent of children who play youth sports, I want 
assurances that when my kids are participating in their team 
sports that they have the best medical care and training from 
the school and its coaches. Yet, across the nation, only 42 
percent have access to an athletic trainer. Meanwhile, states 
have implemented a myriad of guidelines for schools and coaches 
to follow.
    I think we can agree that recreational and competitive 
sports are great activities for young athletes, but we need to 
protect against the potentially-serious impact of concussions. 
We must aim to provide our schools administrators, coaches and 
athletic directors with the information and tools needed to 
protect youth athletes from the dangers of repeated head 
injuries and developing long lasting cognitive issues. Young 
people are resilient and don't want to get sidelined by bumps 
and bruises, but head injuries shouldn't be ignored.
    I look forward to today's testimony. I'm going to recognize 
my colleague Mr. Pascrell, but I do want to say, first of all, 
I commend him for taking such an interest in this issue. I know 
that Bill has been involved in a number of issues related to 
brain injury that I think we passed in the previous Congress, 
the legislation relative to veterans and others, and I will 
assure you there is no one who is more aggressive, and I say 
that in a positive way, in trying to move legislation. And 
that's why we're here today, because he's so aggressive he 
insisted we have this hearing. I recognize my colleague and 
friend Mr. Pascrell.

 OPENING STATEMENT OF HON. BILL PASCRELL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pascrell. Thank you, Chairman Pallone, for holding what 
I think is a very friendly hearing and welcome you all today.
    This is a great location for the hearing. I appreciate the 
hospitality of the Jersey Devils as well as the Prudential 
Center for allowing us to use their facility.
    Before I start I want to take a moment to thank the Center 
for Disease Control and Prevention. They've done a fantastic 
job over the past several years in spreading awareness of 
concussions in school sports through their Heads Up Program. I 
want to commend them. It's a great program.
    Nikki, you know what I think about you, your parents. 
You're a brave young woman. I've worked with you over the last 
year on the ConTACT Act making it a better Act because of you 
and your input. You greatly increased your fellow students 
awareness of concussion, God knows you've saved lives. I thank 
you for speaking on behalf of students who have been affected.
    Joanna Boyd, where are you, from the Brain Injury 
Association of New Jersey. You worked tirelessly over the last 
several years. I want to thank you and your organization's 
dedication to this issue. In 2006 we worked together to get 
grants to New Jersey schools for testing technology, to get the 
right technology to provide baselines so we know what we're 
talking about so that we can make comparisons and see before 
and after situations. I look forward to continuing to work with 
the organization.
    Michael Prybicien. Where are you, Michael? Thank you for 
coming from Passaic, I was just in Passaic earlier this 
morning, to help us see how athletic trainers are in intrical 
part of the solution. Thank you for coming here today.
    Dr. Joel Brenner. Where are you? Dr. Brenner, thank for you 
making the trip all the way from Virginia to lend us your 
medical expertise as we work to protect our children's health.
    And finally, Roman Oben. Where do I start with Roman. Super 
Bowl champ, NFL Pro, making the transition from success on the 
gridiron to success after the NFL. I can remember Oben ten 
years ago as an intern in my office. You've come a long way. 
All of the NFL players I've talked over the last three, four 
years, we finally are doing something about that, about head 
injuries, about concussions. Guys who play for sometimes three, 
four years, sometimes ten years, almost throughout the line of 
being vegetables because the league would not address it. They 
are addressing it and they endorse our legislation. I thank you 
for being here, Oben. We're honored to have you.
    So we're at the beginning of the school year. Congressman 
Jim Ringwood, welcome Congressman Jim Ringwood of Pennsylvania. 
We started the congressional brain injury task force with a 
number of us in the committee. Of course it does fit in a 
telephone booth 11 years ago. We had no idea, believe me, we 
did not, of how prevalent brain injuries would become over the 
years for school sports. But today the Center for Disease 
Control and Prevention estimates as many as 3.8 million sports 
and recreation-related brain injuries occur each year, that's a 
phenomenal number. And remember you do not have to have a blow 
to the head to have a concussion, but a blow to the head and a 
concussion is brain damage, whatever degree.
    You've already probably seen the news over the last month, 
concussions have become a growing problem for our schools. A 
study published this past September, in the September issue of 
Pediatrics, a journal of American Academy of Pediatrics found 
that between 1997 and 2007 a number of children--the number of 
children seeking emergency medical care for concussions is 
doubled. More troubling is that between 2001 and 2005, the 
beginning of this decade, approximately half of all emergency 
department visits were sports-related conclusions.
    Many parents and students today do not realize how 
dangerous contact sports are until it's too late. In 2008 this 
difficult reality hit home in a high school student from my 
district Ryan Darrell. He died after returning to a football 
game without fully recovering from a previous concussion.
    In discussing the dangers of repeat concussion, the biggest 
worry is a student suffering a second impact syndrome, a 
condition that is debilitating if not deadly. We know today 
that 41 percent of concuss athletes are returning to play too 
soon. That is a fact of life. Under guidelines set out by the 
American Academy of Neurology, again I repeat, I can't repeat 
it enough, concussions are a brain injury. For an athlete that 
has suffered a concussion, getting off the failed can literally 
be the difference between life and death. Second impact 
syndrome is preventable. There's no excuse for our children 
having to face the life changing realities of this condition.
    In Ryan's memory and to prevent this devastating injury 
from affecting other families, Congressman Tom Platts of 
Pennsylvania and I introduced the ConTACT Act, H.R. 1347. Our 
Bill does two essential things to protect students. First, it 
brings together a conference of stakeholders to establish 
concussion management guidelines which will be used to prevent 
identity, treat and manage concussions in school-age children. 
These are physicians, these are therapists, these are 
neurologists, et cetera. These are the professionals who will 
establish the guidelines, not the Congress. We need to 
establish our own guidelines for our own mental fitness. It 
then authorize grants to state for adopting and disseminating 
and implementing these guidelines and for the purchase of 
testing equipment to carry out baseline and post-injury 
neuropsychological testing for student athletes.
    You can have a neurological psychological base test, it 
makes no sense unless we have a test of a student who has been 
injured so that we can make a comparison. This is exactly the 
mistake that the Department of Defense has made on a 
congressional directive of 2007 when the Department of Defense 
decided in November of 2008 that they weren't going to pay the 
attention to the exit neurological psychological test. They not 
only botched in not protecting our soldiers when they went on 
the field our sons and daughters, our neighbors, but they 
botched them being tested when they come off the field to see 
how severe the injury is. We do not want to submit to that same 
stupid mistake.
    We know that some states have passed legislation requiring 
schools to implementing concussion guidelines. When a school 
district attempts to crap concussion policies, it will find a 
range of varying guidelines. That's going to be confusing. To 
be clear, there are no federal guidelines at this time to help 
students adopt uniform policies. Therefore, in tackling the 
issue today and in reviewing the Bill, the ConTACT Act, we are 
taking action to make school sports safer for all children. In 
fact, we are considering expanding it beyond the middle school 
and the high school into specific organized sports for young 
folks within each community.
    Support continues to build for the ConTACT Act. It is 
endorsed by the Brain Injury Association of America, the Easter 
Seals, the National Football League, the Players Association, 
the Parkinson's Action Network, the State Head Injury 
Administrators, American College of Rehabilitation and 
Medicine.
    I look forward to working with the Committee on this 
important legislation. I want to thank you, again, Chairman 
Pallone. I know many things have come through the Health 
Subcommittee. It's been a momentous session, to say the least. 
For your leadership on this committee and in bringing this 
issue to the forefront. As you know, the Bill has been heard in 
a few other committees before coming to your committee, and I 
thank you for your time.
    Mr. Pallone. Thank you, thank you Congressman Pascrell.
    That concludes our opening statement since it's just the 
two of us. We're now going to turn to our witnesses. As I said, 
we have two panels. Dr. Vikas Kapil is on the first panel by 
himself. Welcome and thank you for being here. I see Vikas 
somehow became Vick, I guess it doesn't matter to you.
    Dr. Kapil. Yes, sir. No, Vick is great.
    Mr. Pallone. Let me mention that you are a physician and 
Associate Director for Science of the Division of Injury 
Response from the National Center for Injury Control and 
Prevention at the Centers for Disease Control and Prevention. 
We normally have five minutes. I'm not going to hold you to it 
too much because we don't have that many witnesses today and 
your statement becomes part of the record. In the discretion of 
the committee you can submit additional briefs and pertinent 
statements and writings at the conclusion of the record 
afterwards if you'd like. I ask you now to begin with your 
statement. Thank you.

   STATEMENT OF VIKAS KAPIL, ASSOCIATE DIRECTOR FOR SCIENCE, 
    DIVISION OF INJURY RESPONSE, NATIONAL CENTER FOR INJURY 
    PREVENTION AND CONTROL, CENTERS FOR DISEASE CONTROL AND 
   PREVENTION, UNITED STATES DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Dr. Kapil. Thank you, sir.
    Thank you and good afternoon, Chairman Pallone and 
Congressman Pascrell. My name is Dr. Vikas Kapil. I'm an 
emergency medicine and public health physician currently 
serving as the Associate Director of Science at the Division of 
Injury Response at CDCs injury center. It is an honor to be 
here on behalf of CDC.
    I would like to highlight for you today some key facts 
about sports concussion among youth, described prevention and 
response efforts that are currently underway and also talk a 
little about some of the partnerships we're engaged in at CDC 
to address this critical problem among this nation's youth.
    As you already touched on, traumatic brain injuries are a 
serious threat to the health and well-being of children and 
adolescents in the United States. A TBI is caused by a bump, a 
blow or even a jolt to the head or a penetrating head injury 
that disrupts the normal function of the brain. The majority of 
TBI that occur each year are concussions or other forms of mild 
TBI. While most athletes with a concussion recover quickly and 
fully, some will have symptoms that last for days, weeks or 
even much longer.
    Signs and symptoms of concussion include but are not 
limited to headaches, nausea, vomiting, difficulty 
concentrating, irritability, sadness and sleep disturbance. 
Similarly, repeated mild TBIs occurring over an extended period 
of time, i.e., over months or years, can result in cumulative 
neurological and cognitive deficits. There are also case 
reports of catastrophic and fatal injuries among young athletes 
following repeat TBI occurring within a short period of time, 
such as hours, days or weeks while they were still symptomatic 
from a previous incident.
    We know that children are more likely to sustain a 
concussion and take longer to recover than adults, and if they 
do sustain one concussion they're also at increased risk for 
subsequent incidents.
    To help address this problem CDC has developed a Heads Up 
initiative to educate health care professionals, coaches, 
athletic directors, athletic trainers, parents, school 
professionals, clinicians and also athletes themselves about 
concussion to help improve prevention, recognition and response 
to this serious injury. Because coaches and parents are often 
the first line of defense against sports-related concussions 
among young athletes, the Heads Up material focus on providing 
practical information, such as an action plan, a list of 
concussion signs and symptoms that is readily available on a 
clipboard or in another easily reached place and can be used at 
all games and practices.
    One example is CDC's new Heads Up on line training for 
youth sports coaches. This course provides coaches with what 
they need to know about concussions in less than 30 minutes so 
they can be prepared for the sports season.
    Complementing the information included in our Heads Up 
initiative, a number of states have also undertaken efforts to 
address sports concussion among youth and high school students. 
As you know, several states have passed or are considering 
legislation on concussion in sports. CDC will be working in the 
coming years to evaluate these state laws and to assess their 
implementation successes and challenges as well as their 
intended and unintended impact.
    CDC currently supports 30 state health departments to 
conduct TBI surveillance for all causes as well as to engage 
coalition, to promote strategy, to address critical problems 
such as TBI.
    We have more than 60 partners on the Heads Up initiative. 
These partners play a crucial role in getting this information 
out to those who need it most. One example of this is CDC's 
partnership with the National Football League on concussion 
awareness and promoting the Heads Up initiative. In 2008 CDC 
partnered with the Seattle Seahawks and the Brain Injury 
Association of Washington to implement an education campaign 
based on CDC's Heads Up initiatives. This campaign, called 
Heads Up Washington, helped create momentum in Washington for 
passage of the nation's first state-based sports concussion 
law, the Zackery Lystedt Law.
    CDC has also worked with the NFL to disseminate the Heads 
Up information to 20,000 high school football coaches, and in 
the coming months CDC with support from the NFL will work on 
development of education tools for clinicians on return to play 
management for young athletes.
    Although there are promising interventions and a number of 
strategies currently being employed to address this issue, 
there are still opportunities for improvement. We need to 
improve the ability to monitor and track the number of sports-
related concussions that occur among young athletes, and get a 
better sense of the circumstances surrounding those injuries. 
These types of efforts can help inform and optimize prevention 
and response strategies.
    Lastly, we need to ensure that future initiatives are 
developed with scientific integrity and are disseminated widely 
to ensure all those who work with children and teens in sports 
setting have the information they need to keep these young 
athletes safe. We also need to continually and systematically 
evaluate current and future strategies, including programs and 
policies, such as the state policies that I mentioned earlier.
    In conclusion, we can reduce the dangers of sports-related 
concussions on our nation's youth by bringing prevention, 
recognition and response strategies to scale, and ensuring that 
they are accessible to sports teams, schools and youth sports 
programs as well as clinicians. Scaling up these approaches 
necessitates collaboration between the public health community 
as well the health care community and a broad range of partners 
and stakeholders, such as national organizations and those in 
education.
    I would like to thank the Subcommittee for its continued 
support of CDC and its injury and violence programs. I would be 
happy to take any questions that you may have at this time. 
Thank you.
    Mr. Pallone. Thank you, Dr. Kapil. How do you pronounce it?
    Dr. Kapil. Kapil.
    [The prepared statement of Dr. Kapil follows:]

    [GRAPHIC] [TIFF OMITTED] T8130A.001
    
    [GRAPHIC] [TIFF OMITTED] T8130A.002
    
    [GRAPHIC] [TIFF OMITTED] T8130A.003
    
    [GRAPHIC] [TIFF OMITTED] T8130A.004
    
    [GRAPHIC] [TIFF OMITTED] T8130A.005
    
    [GRAPHIC] [TIFF OMITTED] T8130A.006
    
    Mr. Pallone. You know the way it works, we alternate. Five 
minutes questions for me and then Congressman Pascrell and 
we'll go back and forth. I wanted to ask though, I know you 
mentioned--you stated that--well, you mentioned CDC's 
partnership with the Seattle Seahawks NFL Team, the Brain 
Injury Association of Washington, and you stated that the 
Washington Heads Up Concussion and Sport Campaign provide a 
momentum for the Zackery Lystedt Law, and that was the first 
law in the nation that established return and play guidelines. 
Now, since that was enacted in 2009 many others states would 
follow suit and have enacted or are considering legislation. So 
my first question is, how do you foresee national concussion 
management guidelines and, again, I'm referencing Mr. 
Pascrell's Bill, how do you foresee those national concussion 
management guidelines interacting with current state efforts?
    Dr. Kapil. As you indicated, Chairman Pallone, many states 
are actively passing laws or contemplating similar legislation 
that dictates how youth athletes with concussions should be 
managed. It would helpful from our perspective for national 
guidelines to demonstrate consistency and compatibility with 
those state laws and ongoing implementation efforts from the 
states.
    Mr. Pallone. A second question a long the lines of 
coordination but with respect to funding activities, in your 
testimony you highlighted several prevention efforts that CDC 
has adopted including the Heads Up Program and the Injury 
Program. How are the activities described, again, in Mr. 
Pascrell's Bill H.R. 1347, different from current CDC funded 
TBI activities? You know, I'm trying to, you know, Congressman 
Pascrell come up with a good Bill of federal guidelines or 
national guidelines, I should say, and grant programs, but, you 
know, the question all my colleagues ask every time, you know, 
do we need federal versus state laws and I think you've 
answered that, but then, you know, what would be different that 
we would be funding from what you're doing now.
    Dr. Kapil. The CDC's current TBI related activities are 
focused on all populations and all age groups regardless of 
etiology. These types of activities include surveillance, 
research, education, policy evaluation. For example, our 30 
states programs that you mentioned receive funding under our 
CORE Injury Program to conduct broad injury surveillance kinds 
activities including TBI, developing partnerships and providing 
education for selected populations among other focused areas. 
CDC is also supporting work to disseminate clinical management 
guidelines for adult populations with mild TBI seen in 
emergency departments. We plan to expand this work to include 
guidelines for the pediatric population or general traumatic 
brain injury in the future.
    Mr. Pallone. I guess what I'm trying to get at, I now 
you've answered, you know, obviously Congressman Pascrell feels 
there are huge gaps here. Some states have guidelines, some do 
not, that's why we need federal. You're doing some programs 
but, you know, it still provides for a lot more grants. So I 
mean, I guess what I'm trying to get at is you feel that there 
are gaps that the federal guidelines or the national guidelines 
there's still a lot of states either don't have guidelines are 
they're not adequate and you feel that the grant programs that 
are provided under the legislation are needed because you're 
not doing enough, that's essentially what I'm trying to find 
out.
    Dr. Kapil. Chairman Pallone, we don't have an official 
position on the Bill. We have provided some technical comments 
and we appreciate the opportunity to do that, to provide those 
comments to the Committee. If you'd like what we can do is 
provide some additional detail and specificity and follow-up.
    Mr. Pallone. Sure. I'll be happy to have any written 
follow-up to my questions, that would be good. We don't have 
the bell here, so I don't know how I'm doing time wise.
    Mr. Pascrell. You're doing fine.
    Mr. Pallone. I still have a couple minutes. Let me go to my 
second question. You touched on the issue of preseason, I think 
you said something about preseason baseline and post-injury 
testing. I went through this with my son, you know, that before 
he--and I have two daughters and a son and they all play 
different sports at different times, some more than others. 
And, you know, I notice that with my son before he started to 
play football that they had some kind of preseason testing. So, 
I guess my question is, if you could discuss the issue with 
these preseason baseline and post-injury testing in a little 
detail. What is the benefit of doing that type of testing and 
in your professional judgment should this type of testing be 
computerized, what factors might be taken into account with 
respect to computerized testing.
    Dr. Kapil. Yes, sir. So neurocognitive testing is a 
promising tool in the evaluation of people with TBI. It may 
provide more objective and consistent evaluation of baseline 
status offering health care providers the opportunity to 
compare post-injury findings with baseline results. In the past 
CDC had actually provided some funding for studies that have 
reviewed the effectiveness of some neurocognitive assessment 
tools in the evaluation and management of TBI. Computerized 
testing offers some potential advantages, particularly for 
screening large numbers of people. And it also means that 
future comparisons to baselines test results are somewhat 
easier to conduct and also effects of test learning by subjects 
can be minimized because the test is computerized.
    However, CDC believes that the neurocognitive testing is 
only one part of a comprehensive strategy in the appropriate 
evaluation and management of TBI, and that should be conducted 
and interpreted by knowledgeable, experienced and qualified 
health professionals.
    Mr. Pallone. You know, I'm not that familiar with it, 
obviously, but in other words let's use football for example. 
Would normally this kind of preseason baseline testing be done, 
you know, at the high schools in my district before the kids 
play?
    Dr. Kapil. I can't speak, Chairman Pallone, I can't speak 
specifically to the circumstances in your district.
    Mr. Pallone. Let's say nationally.
    Dr. Kapil. Yes, sir. But it is widely used.
    Mr. Pallone. It is widely.
    Dr. Kapil. Yes, sir. The computerized testing is widely 
used both in professional sports, in high schools, in colleges, 
you know, wide variety of settings. So, it's certainly possible 
that in the high schools in your community it is being used. In 
some cases to conduct baseline testing which can then be 
compared in the future, and in other cases if baseline testing 
isn't available, you know, a post-injury test can be compared 
to normative values that are available that are gender specific 
and age specific.
    Mr. Pallone. And then like my last question, I'm sure my 
time is up, we can always come back. Is that only done for 
sports where there's a lot of contact like football, I don't 
know basketball, whatever, or would they do it for all sports, 
how does it work.
    Dr. Kapil. Well it certainly could be done for any sports 
in which there's risks for traumatic brain injury. And as you 
know, even though the rates do vary from sport to sport to some 
extent, the risk is not insignificant in sports even outside of 
the organized sport settings such as high school basketball and 
football for example in youth sports. In those kinds of the 
settings I suspect the use is probably much less frequent than 
it would be in organized settings.
    Mr. Pallone. And more likely in contact sports like 
football. I mean, obviously you wouldn't be doing it in like 
track, would you, I don't know or you would.
    Dr. Kapil. I'm hesitating only slightly because there are 
sports that are not traditionally thought of as contact sports 
which are associated with fairly significant risk for traumatic 
brain injury and cheerleading is an example and it comes to 
mind. So, certainly in some settings a sport like cheerleading 
it would perfectly appropriate to consider neuro-psych 
assessments or computerized neuro-psych assessment. But again, 
it's part of a comprehensive strategy as opposed to using the 
test results in isolation, so it should be done at a 
comprehensive strategy in our opinion incorporating a whole 
host of other important aspects in terms of prevention 
recognition and management of TBI.
    Mr. Pallone. It's funny you mentioned cheerleading, because 
my eldest daughter always complained to me that they never paid 
much attention to the cheerleaders. Thank you.
    Congressman Pascrell.
    I think I went over, so now they're going to bring out the 
clock.
    Mr. Pascrell. Dr. Kapil, I'm glad that you mentioned--there 
are many myths circulating about which sports produce, 
according to the number of people proportionately in that 
sport, the most injury. We are way off in what we would think 
is a result. There are many, many female sports that are 
producing very serious situations. Many times because the 
proper equipment is not being used to protect, and we don't 
want wutzies out on the field, but we do want to protect our 
kids. I don't think the two things are incompatible, would you 
agree.
    Dr. Kapil. I would agree, sir.
    Mr. Pascrell. In the sports that we least think are going 
to produce these injuries, we're thinking of boxing, we 
thinking of football, but we know that girls soccer, girls 
polo, many of those sports provide a worse situation. Now, I'd 
like to know two things. Number one, what is the CDC doing to 
enunciate what is the difference between the female athlete and 
the male athlete in terms of who's more vulnerable to these 
violent acts.
    Dr. Kapil. I'm not aware that we've done any specific work 
in that area, Congressman Pascrell.
    Mr. Pascrell. There's been some studies done.
    Dr. Kapil. Yes, sir, there have. We may well have over the 
last, you know, since the inception of the injury center at 
CDC, we may have well supported some work in that area. 
Certainly it's a very, very important issue. And you've raised 
another very valid important point as well, is that we don't 
want these kinds of efforts to dissuade or discourage children 
from participating in healthy sports-related activities, which 
are very important for them for other reasons. In terms of the 
specifics of the kinds of studies that are related to female 
athletes and male athletes supported by CDC, I would have to 
get back to you on that and I'll be happy to do that.
    Mr. Pascrell. The culture may be prompting a parent or a 
student to say I can go back in there or to not even 
communicate his injury. I mean, that happens, doesn't it.
    Dr. Kapil. Yes.
    Mr. Pascrell. And either through peer pressure or parents 
who want to assimilate their own talent in their daughters or 
sons and want to play through their kids out there on the 
field. I don't care whether it's hockey or ping-pong, I don't 
care what it is. You would agree with me on that too.
    Dr. Kapil. Sir, I have three children of my own and they 
all participate in sports, a variety of sports, and I would 
wholeheartedly agree. The cornerstone of our efforts at CDC are 
prevention and recognition and then appropriate response. The 
prevention aspects, of course, involve the rules of play, 
things like the use of appropriate protective equipment, 
policies regarding play. The difficult part from my 
perspective, the real challenge is the awareness both among 
athletes, coaches, as well as parents, school professionals and 
even clinicians on the awareness of that even a relatively 
seemingly minor ding to the head could have significant and 
serious consequences. Absolutely right.
    Mr. Pascrell. You said that many times about a blow to the 
head. What I have researched, and correct if I'm wrong, you 
don't have to have a blow to the head to have a concussion, 
explain how that happens.
    Dr. Kapil. This is also correct. A jolt which doesn't 
involve necessarily a direct blow to the head. The brain is 
basically encased in the skull and there's some fluid and 
membranes around it, but just a sudden and violent movement of 
the head can move the brain around sufficiently inside the 
skull that it actually can strike the sides or the back or the 
front of the skull and actually cause a significant injury as 
well. So that's absolutely true.
    Mr. Pascrell. And that is what's happened to many of our 
soldiers who report after a situation that they did not receive 
a blow to the head in these road side bombs. There is a 
conscious statement when they're asked. No, I didn't get hit in 
the head, nothing happened to my head. And yet we know quite 
well that there was damage to the brain after the test. Let me 
just ask this about the test.
    It doesn't make any sense to have an entry level test, be 
it neuropsychological or computerized, whatever, if you don't 
have an exit test, correct?
    Dr. Kapil. Certainly a baseline test is important for 
comparing.
    Mr. Pascrell. What do you compare it to.
    Dr. Kapil. Right. So, the most typical use of this would be 
that you would have a baseline test and then subsequently if an 
injury occurs, for example, that test result following an 
injury could be compared to the baseline. One of the 
challenges, of course, and maybe one of our next witnesses will 
touch on this, is that the baseline test isn't always 
available, which means in those cases then you are basically--a 
post-injury test result would need to be compared to some 
normative, expected normative data for that age and gender 
patient.
    Mr. Pascrell. Do you think every athlete that we're talking 
about in this legislation should be given a baseline test 
before they go out in to any field of combat or 
competitiveness.
    Dr. Kapil. Sir, we--again, we think that--our perspective 
is that neurocognitive testing is potentially a very important 
tool. However, it's part of a comprehensive strategy to be 
approached to TBI and the availability of baseline testing as a 
comparative tool for future would be potentially useful.
    Mr. Pascrell. The type of test is significant. You wouldn't 
give a questionnaire though, would you.
    Dr. Kapil. I'm sorry, sir.
    Mr. Pascrell. You don't think a baseline test is a 
questionnaire before and after, that's not a baseline test to 
you, is it.
    Dr. Kapil. And again, sir, I'm slightly out of my area of 
expertise in terms of neurocognitive assessment. The test 
should be conducted, whether it's computerized or not 
computerized should be conducted by an individual who is 
knowledgeable in the area, understands neurocognitive 
assessment and testing and can interpret the results 
appropriately.
    Mr. Pascrell. And who might that be.
    Dr. Kapil. It could be a variety of individuals under 
different circumstances. So, I would not label appropriate 
individuals with a particular degree or particular title. In 
some cases it may be appropriately trained physicians, it might 
be other clinicians such as advance practice nurses or nurses. 
It could be psychologists and neuropsychologists. So it could 
be a variety of different kinds of appropriately trained and 
qualified health care professionals.
    Mr. Pascrell. I hope we don't do what the Department of 
Defense did. They tested 550,000 of our soldiers, your sons an 
daughters, my sons and daughters and relatives and our 
neighbors before they went into the battlefield. You know how 
many they tested coming out of the battlefield.
    Dr. Kapil. No, sir.
    Mr. Pascrell. 3,000. You know why they tested only 3,000.
    Dr. Kapil. No, sir.
    Mr. Pascrell. Well, they tested 3,000 because they're the 
only ones they thought that got injured. You know what they 
gave them, a questionnaire. I have the questionnaire right here 
if you're interested.
    The point I'm trying to make is this is serious, this is 
life or death in many instances. This determines who goes back 
out, who's redeployed, in our case who goes out in the field. 
Serious business.
    I thank you for your testimony today.
    Dr. Kapil. Thank you.
    Mr. Pallone. Thank you. Thank you, Mr. Pascrell. Thank you, 
Dr. Kapil.
    I think we're going to move to the second panel.
    Dr. Kapil. Great. Thank you very much.
    Mr. Pallone. I appreciate you coming here. I assume you 
came from where.
    Dr. Kapil. From Atlanta.
    Mr. Pallone. Thank you. We really appreciate you being here 
today, your testimony.
    Dr. Kapil. My pleasure and we appreciate the Committee's 
thoughts.
    Mr. Pallone. And any questions that you want to follow-up 
with in writing please do so.
    Dr. Kapil. Yes, sir. Thank you.
    Mr. Pallone. Thank you.
    The next panel come forward now.
    Welcome to all of you and thank you again for appearing 
today. Some of you had to come from a distance as well. Let me 
introduce each of you first. I'll start from my left is Ms. 
Nikki Popyer, who I mentioned previously, is a senior at 
Marlboro High School in Marlboro, New Jersey in my district. 
There is Ms. Joanna Boyd who is a Public Education Coordinator 
for the Brain Injury Association of New Jersey. Mr. Michael 
Prybicien who is Head Athletic Trainer at Passaic High School. 
Dr. Joel S. Brenner who is Medical Director of the Sports 
Medicine Program at the Children's Hospital of the King's 
Daughters. Where is that?
    Dr. Brenner. Norfolk, Virginia.
    Mr. Pallone. And then lastly is Mr. Roman Oben, who I met 
before and spoke to briefly, who is a former NFL player with 
the New York Giants, Cleveland Browns, Tampa Bay Buccaneers and 
the San Diego Chargers from 1996 to 2008. He's been involved in 
many community activities since then and has taken a special 
interest in this issue and is a friend of yours, right?
    Mr. Pascrell. Yes.

   STATEMENTS OF NIKKI POPYER, SENIOR, MARLBORO HIGH SCHOOL, 
      MARLBORO, NEW JERSEY; JOANNA BOYD, PUBLIC EDUCATION 
   COORDINATOR, BRAIN INJURY ASSOCIATION OF NEW JERSEY; MIKE 
   PRYBICIEN, M.A., A.T.C., C.S.C.S., HEAD ATHLETIC TRAINER, 
 PASSAIC HIGH SCHOOL, PASSAIC, NEW JERSEY; JOEL BRENNER, M.D., 
 M.P.H., F.A.A.P., MEDICAL DIRECTOR, SPORTS MEDICINE PROGRAM, 
CHILDRENS HOSPITAL OF THE KINGS DAUGHTERS; AND ROMAN OBEN, NFL 
  PLAYER FOR THE NEW YORK GIANTS, CLEVELAND BROWNS, TAMPA BAY 
         BUCCANEERS, AND SAN DIEGO CHARGERS, 1996-2008

    Mr. Pallone. Thank you very much being here today.
    As I said, we try to keep to five minutes. They've actually 
given us the timer now so you can look at it. I'm not going to 
hold you to it completely, but just to try to keep it in mind 
as we proceed. And as I mentioned with our previous witness, 
that you can submit additional briefs and pertinent statements 
in writing. So if you can't answer a question, we'd like you to 
answer our questions, but if you can't and you want to follow-
up in writing that's fine.
    We'll start with Nikki Popyer. Thank you again.
    I'm not actually sure if you're in my district or 
Congressman Holtz' district. We haven't determined that for 
sure because we split Marlboro. Thank you.

                   STATEMENT OF NIKKI POPYER

    Ms. Popyer. Thank you. My name is Nikki Popyer and I'm a 
senior at Marlboro High School. Thank you for the opportunity 
to represent the many student athletes in schools all over the 
country who have suffered concussions.
    I have been playing basketball since I was in kindergarten. 
I immediately fell in love with the sport and never passed up 
an opportunity to train and perfect my game. As a young child 
playing sports gave me something positive to fill my free time, 
taught me how to be part of the team, develop long lasting 
relationships based on common goals and rewarding me with 
healthy self-esteem that succeeding at something brought.
    As I got older, I strove to work as hard as possible in 
order to attain the personal goals I had set for myself. Not 
once did I choose something over basketball. I grew to be 
competitive while still maintaining my humility. It was that 
competitive nature that drove me to play through the usual 
strains, sprains, broken bones, disappointment and achievement 
and ultimately a string of concussions that robbed me of my 
passion and my dream.
    Today I speak to you with a stunning seven basketball 
related concussions and another half dozen or so since I had 
stopped playing. You see, at this point it doesn't take much to 
knock me out. A mere tap to my head from the instant hug for a 
picture has made me lose consciousness. The head injury started 
in seventh grade when an opponent and I dove for a loose ball 
and my head hit the floor. That was followed by a slide on the 
wrestling mats, a broken nose after I was flipped over by a 
defender, and just a series of unlucky moves. In many instances 
I was unconscious for several minutes and sometimes taken to 
the ER by ambulance. One especially malicious hit left me 
unable to see for moments following the impact. Each time I sat 
out a little longer, but what my parents didn't know was that I 
was already having symptoms of post-concussion syndrome, but my 
only thought was to get back on the court. I didn't tell them 
that I had constant headaches or that I couldn't stand bright 
lights or loud noises, that my hands tingled or that I was 
becoming unable to concentrate in school.
    Ironically, my parents were doing the right thing and 
taking me to many doctors who either dismissed my injuries as 
just a bang on the head or grossly misinformed us about the 
danger of repeated head injury or the potential of developing 
long lasting cognitive and neurological issues that could 
derail not only my basketball career, but can affect my entire 
life.
    We did as we were told. If they told me to sit out two 
days, I did. If they told me to stop playing until I was 
symptom free for the same duration as I had symptoms, I did. 
Unfortunately, none of them knew enough about concussions to 
treat me correctly. I was continually allowed to return to 
play, unaware that the concussions were cumulative and not the 
stand-alone events that they had led us to believe they were.
    This is why I am here. It's not enough to assume 
administrators, coaches, athletic directors and health care 
professionals can arm themselves with the right information and 
tools needed to protect youth athletes from ending up in my 
predicament. There is a great need for a bill on concussion in 
school sports, like the Concussion Treatment and Care Tools 
Act. Without uniform guidelines and the money to implement 
them, it will take schools longer to help students understand 
the importance of addressing a concussion and delay applying 
the protective protection they need. I have spent a great deal 
of the last two years working to increase awareness, and I can 
promise you that not all the doctors and coaches are capable of 
handling students with head injuries, and only a handful of 
those students are capable of making decisions themselves.
    Through the web I have had the opportunity to talk to 
dozens and dozens of kids who are just like me. Who either 
received the wrong diagnosis and treatment or chose to hide 
their symptoms. I urge them to be honest and take enough time 
off to truly heal before returning to play. Even in my school, 
where I am a very visible example going back too soon, my 
friends are still trying to cheat it. And I can tell you that 
all across the country student head injuries are not being 
taken seriously enough.
    I am very fortunate that my school has an excellent 
computerized neuro-cognitive testing program in place, and 
certified athletic trainer Mark Brandle and athletic director 
Dave Reiden who advocate for and protect all of the students. 
Unfortunately, that's not what I am hearing from other areas. 
Especially in these times of severe cut-backs in school 
programs, it is imperative that those schools who have tools in 
place keep them, and those who do not are helped to get them.
    I urge you to consider Congressman Bill Pascrell's 
legislation, the ConTACT Act, as another layer of protective 
gear for all the kids on fields and courts and gyms everywhere.
    Thank you for allowing me this opportunity to speak for all 
those healthy aspiring youth athletes who we should help keep 
that way. Thank you.
    [The prepared statement of Ms. Popyer follows:]

    [GRAPHIC] [TIFF OMITTED] T8130A.007
    
    [GRAPHIC] [TIFF OMITTED] T8130A.008
    
    Mr. Pallone. Thank you, Nikki. And really thank you for not 
only being today but being an advocate on this subject because 
I think it's so important.
    You remind me a little bit of my daughter. You said you're 
a senior, right?
    Ms. Popyer. Yes.
    Mr. Pallone. She's a senior too and she has long hair like 
you, so you remind me of her. Thank you for being here.
    Ms. Popyer. Thank you for having me.
    Mr. Pallone. Sure.
    Ms. Boyd.

                    STATEMENT OF JOANNA BOYD

    Ms. Boyd. Usually I don't need a microphone, however.
    Chairman Pallone and Congressman Pascrell, thank you very 
much for having me here today. My name is Joanna Boyd. I'm the 
Public Education Coordinator for the Brain Injury Association 
of New Jersey. I am testifying on behalf of the Brain Injury 
Association of New Jersey and for the Brain Injury Association 
of America that is comprised of 43 state affiliates all working 
toward the common goal of elevating awareness, research, 
education and advocacy for people with brain injuries.
    I'm testifying today because it is urgent that we address 
this public health cries that concussions present to our 
youths. Athletes who return to play before their brains heal 
experience a slower recovery and they're at risk for a second 
impact syndrome that can cause severe damage to the brain and 
even death. Second impact syndrome can be prevented. At the 
present time we do not have education, protocols or policies in 
place that adequately protect our youth from not only second 
impact syndrome, but also from the cumulative nature of 
multiple concussions.
    The Brain Injury Association of New Jersey began to address 
concussions in sports in 2004 by convening a committee of 
experts in the field of concussions who are also invested in 
the safety of our young athletes. The Concussion in Youth 
Sports Committee developed a consensus statement for New Jersey 
on concussions and we solicited endorsements from key groups in 
the state.
    Then we held a Summit at Giants Stadium in 2006. Delegates 
from all these different groups that have this interest in the 
health and well-being of our youth were invited to come and 
learn the most current research base information about 
concussions. Another purpose of the Summit was to illicit 
support from these groups for a statewide campaign to address 
awareness, raise awareness about concussions in youth sports 
with the goal to lower the incidents to protect young athletes 
from cumulative effects of multiple concussions, an to prevent 
second impact syndrome.
    At that time we also rolled out that matching fund grant 
program that Congressman Pascrell spoke about. And we made, as 
you said, Congressman, matching funds grants available to up to 
100 high schools in New Jersey to purchase a three year 
subscription for computerized baseline testing. The 
subscription would allow for another 300 students year after 
year for the three years to become baseline, and then which, of 
course, is available for re-testing.
    By the way, and as an aside, it took us almost four years 
in order to fill that grant capacity to 100 high schools.
    Also the campaign developed material and disseminate these 
throughout New Jersey and we made posters. We had a tear off 
pad, basic information about concussions. We distributed these 
to First Responders at the First Aid Convention, at the 
Teachers Convention, to school nurses, everywhere that we could 
think of. This was a pad of information where if concussion was 
suspected, you could rip off a page and send it home with the 
child to hopefully educate parents about what was going on. We 
developed an electronic newsletter called Game Plan and a 
website Sports Concussion dot com as a portal for individuals, 
athletes, parents, teachers, coaches and others to access the 
most current information about concussion.
    Our most recent funding is a result of collaboration among 
several groups, including a local philanthropic organization, 
the Mountanside Health Foundation, the NJSIAA, which is the New 
Jersey Interscholastic Athletic Association, one of the sports 
conferences in New Jersey, the Super Essex Conference, I 
believe they have over 30 schools participating, and the Brain 
Injury Association of New Jersey, of course. We came together 
to develop a curriculum that could become part of an agenda for 
the Sportsmanship Program that the NJSIAA encourages the sports 
conferences to hold annually.
    This program is intended to be a pilot program which upon 
completion would be available to all New Jersey high schools, 
sports conferences through the NJSIAA. Part of this 
demonstration phase is to gather some information about what 
our student athletes know and what they don't know, so we have 
a little pre-post test. And we're trying to learn from the 
results of these tests where we are in our educational efforts 
with our young athletes.
    We know that they know that a concussion is a brain injury, 
they can say those words and they can answer yes to that 
question. What we don't know is if they really have digested 
that information and if it will change their behavior. So the 
next phase of our campaign will move forward to emphasize that 
it is critical to rest the brain after a concussion and then 
even when symptom free, to follow a step-by-step return to play 
protocol.
    In October 2008, as you mentioned, Congressman Pascrell, we 
lost a New Jersey student athlete to a tragedy on the field. 
This initiated a new awareness that concussion is definitely a 
brain injury and the consequences can be the most severe. After 
discussions about drafting legislation about concussions, the 
members of two of our committees, the Concussion Committee and 
the Advocacy of Political Affairs Committee, approached 
assemblyman Patrick J. Diegnan as a potential sponsor for 
legislation in New Jersey. Assemblyman Diegnan responded by 
holding a hearing, much like this, in March of 2010 to gather 
information about concussion in youth sports.
    The result of the hearing was to introduce Assembly Bill 
Number 2743, which would require the development of a Student 
Athlete Awareness Program concerning the prevention, risk and 
treatment of sports-related brain injuries. With bipartisan 
support Assembly Bill Number 2743 was passed by at New Jersey 
Assembly on June 28, 2010. A companion Bill, Senate Bill Number 
2106 sponsored by Senators Cody and Vitale is pending 
consideration by the Senate Education Committee.
    Throughout our concussion campaign Congressman Bill 
Pascrell has been a long time devoted champion of this issue. 
He has stressed the importance of protecting student athletes 
for many years. The concussion treatment and Care Tools Act is 
an important step toward protecting our youth from the effect 
of multiple concussions and second impact syndrome.
    At the federal level, we believe that the ConTACT Act could 
incentivize states that have not already made a commitment to 
drafting concussion legislation to make concussion law a 
priority and to provide states with a minimum guideline 
requirement to manage concussion issues in our schools. The 
Brain Injury Association of New Jersey believes that the 
minimum guidelines should be developed by a panel of 
stakeholders including athletes, advocate, medical personnel, 
including everyone who works with student athletes such as 
neuropsychologists and school nurses. Also, the Brain Injury 
Association of New Jersey believes that the grant to states for 
baseline and post-injury testing would be a great opportunity 
for schools who are trying to protect their students on a 
limited budget.
    The ConTACT Act would give coaches, parents, athletic 
trainers and school administrators the tools to keep our 
children safe. The tools, one of the most important tools is 
that educational piece. We need the education desperately. This 
act would ensure that the coaches are trained in recognizing 
the symptoms of concussion and brain injuries and injuries that 
could lead, events that could lead to second impact syndrome. 
It is truly time to get serious about this. It's time to 
protect our youth from needless disability, protect parents 
from becoming life long caregivers for their children. We need 
to protect taxpayers from the cost of these long-term 
consequences of severe disabilities from brain injuries, 
because every system in our country is affected in dollars by 
these events.
    So, the Brain Injury Association of New Jersey and the 
Brain Injury Association of America and all its affiliates want 
to applaud you, Congressman Pascrell, Chairman Pallone, for 
listening to this issue, for hearing our words and for bringing 
this legislation forth for this hearing. Thank you.
    [The prepared statement of Ms. Boyd follows:]

    [GRAPHIC] [TIFF OMITTED] T8130A.009
    
    [GRAPHIC] [TIFF OMITTED] T8130A.010
    
    [GRAPHIC] [TIFF OMITTED] T8130A.011
    
    [GRAPHIC] [TIFF OMITTED] T8130A.012
    
    Mr. Pallone. Thank you, Ms. Boyd. Thank you for all that 
you've done in our state on this issue. It's really important. 
I appreciate your incentive.
    Mr. Prybicien.

                 STATEMENT OF MICHAEL PRYBICIEN

    Mr. Prybicien. Thank you very much. Chairman Pallone, 
Representative Pascrell, I am Mike Prybicien, Head Athletic 
Trainer at Passaic High School in New Jersey, and I am the 
President of the Athletic Trainers Society of New Jersey. As a 
father and a health care professional practicing athletic 
training for the past 17 years, I am passionate about the 
safety in youth sports.
    Thank you for allowing me the opportunity to speak on 
behalf of the National Athletic Trainers' Association and the 
Athletic Trainers of New Jersey about the athletic trainers 
role in concussion management and the important issue of youth 
sports safety.
    As you may know, athletic trainers are health care 
professionals who collaborate with physicians to optimize 
activity and participation of its patients. Athletic training 
encompasses prevention, diagnosis, and intervention of 
emergency, acute and chronic medical conditions leading to 
impairment, functional limitations and/or disabilities.
    All Athletic Trainers must pass a national certification 
examination, and 70 percent of our membership has a masters 
degree or higher. In most of the 47 states where they are 
licensed or otherwise regulated, the national certification 
exam is required for an athletic trainer, to maintain its 
certification with required continuing education.
    Although the issue of concussions in sports has received a 
great deal of attention in the media in recent months, it's not 
a new problem. Athletic trainers have been carrying for 
concussed athletes and warning of the dangers posed by this 
unique injury for years. As athletic trainers and health care 
professionals specializing in team sports, we're the first line 
of defense in the prevention, diagnosis and emergency treatment 
of head traumas and other athletic injuries.
    The NATA has a long history of working with research 
experts to explore the prevention and proper treatment of head 
injuries. In 2009 we issued a head impact during high school 
football, a vile mechanical assessment study. The study 
revealed that high school football players sustain greater head 
accelerations after impact than do college level football 
players, which can lead to concussions and serious cervical 
spine injuries as well. Further, the study urged high school 
coaches to teach proper tackling techniques in order to reduce 
the risk of head and neck injuries among its athlete.
    While much focus has been given to players in the NFL, it 
is important to remember that high school athletes represent 
the single largest segment of football players in this country, 
and account for the majority of sports-related concussions. In 
a given year between four and six percent of high school 
football athletes sustain concussions. Corresponding to an 
estimated 43,000 to 67,000 injuries. In fact, there are five 
times as many catastrophic football injuries among high school 
athletes than college athletes. Estimates indicate, however, 
the true incidence of injury is likely even higher. Some 
research suggests that more than half of high school athletes 
who get concussed do not report their symptoms. Even when faced 
with these disturbing trends and the fact that seven million 
students participate in high school sports in America, the NATA 
estimates that only 42 percent of public high schools in 
America have access supposed to an Athletic Trainer. In fact, 
the NATA estimates that across the country, the ratio of 
students athletes to Athletic Trainers is 2,678 to 1.
    According to a New York Times article at least four 
American high school students died of football head injuries in 
2009. Most suffered from the aforementioned second impact 
syndrome, a rare but catastrophic dysregulation of the brain 
activity that can occur when a young football player or athlete 
sustains another hit before the brain has recovered from their 
earlier concussion. In nearly all cases, such tragedies could 
have been prevented if the symptoms of concussions were 
recognized and heeded, giving the brain enough time to fully 
heal.
    Further studies show 50 percent of second impact syndrome 
resulted in death.
    Female high school soccer players suffered 40 percent more 
concussions than the male counterparts, according to a journal 
of athletic training study.
    Female high school basketball athletes suffered 240 percent 
more concussions than males. Again, another journal on athletic 
trainers study.
    The NATA has endorsed Representative Bill Pascrell's 
Concussion Treatment and Care Act and Senator Robert Menendez's 
companion Bill in the Senate. The Association applauds the 
creation of national guidelines to address prevention, 
identification, treatment and management of concussions of 
school-aged children.
    The NATA stands ready to assist in development of national 
guidelines and offers to assist in any way possible. Ideally, 
the NATA would like to see that state athletic associations in 
conjunction high school sports associations and local brain 
injury association chapters, are implemented in the 
dissemination and implementation of these guidelines.
    The ConTACT Act should be praised for recognizing the need 
for baseline testing in student athletes in addition to the 
post-injury testing. Furthermore, we applaud authorization for 
appropriations to ensure this measure.
    In New Jersey all of our professional sports teams and New 
Jersey National--excuse me. In New Jersey all of our 
professional teams and collegiate athletic teams require the 
use of an Athletic Trainer, and 86 percent of the New Jersey 
State Interscholastic Athletic Association Schools employ the 
services of an Athletic Trainer.
    The Athletic Trainers' Society of New Jersey is a 
professional association consisting over 1,000 members. We 
prided ourselves at being at the forefront of concussion 
education, not only for our patients, but the medical community 
as well. In August of 2010 we held a Concussion Summit, which 
consisted of a panel of nationally recognized speakers, as a 
means to education physicians and health care providers who 
play a role in the management of sports-related concussions. 
More than 200 health care providers attended this event. In 
March of 2010, we co-sponsored a concussion support group 
meeting for parents and students athletes who have been the 
victim of a concussion.
    The ATSNJ applauds the efforts of our state legislators, in 
particularly Assemblyman Patrick Diegnan, Senator Richard Codey 
and Senator Paul Sarlo who have introduced legislation with 
regard to either concussions and/or student athlete safety. The 
ATSNJ is thankful that the New Jersey legislators have included 
and valued the input of the ATSNJ and its members through the 
development of such important legislation.
    The NATA has developed recommendations on addressing head 
injuries in football. These recommendations include a Graded 
Symptom Checklist, which is distributed through the NATA's 
position statement Management of Sports-Related Concussion.
    In addition to the national youth sports crisis in America, 
the NATA has spearheaded the youth Sports Safety Alliance, and 
initiative to raise awareness, advance legislation, and improve 
medical care of young athletes. This call to action includes 
the following.
    Ensuring that youth athletes have access to health care 
professionals who are qualified to make assessments and return 
to play decisions.
    Two, ensuring pre-participation physicals before play 
begins.
    Three, recognizing the difference in an injury and working 
toward the elimination of the culture of playing through pain 
without assessment.
    In addition to these items, NATA strongly supports the 
recognition of athletic trainers under the Medicare and 
Medicaid programs. This would encourage private insurance 
companies to reimburse athletic trainers for physical medicine 
and rehabilitation. This legislative action is important, as it 
will assist more athletic trainers being available to high 
schools, local youth sports and medical facilities to treat 
those injured individuals suffering from head trauma or other 
sports-related injuries.
    I would once again like to thank Chairman Pallone and 
Representative Pascrell for inviting me here today. I greatly 
appreciate the opportunity to participate in this hearing and 
offer myself and the National Athletic Trainers' Association as 
a resource to you and the other members of the Subcommittee as 
you work toward addressing this important issue facing the 
youth in our nation. Thank you.
    Mr. Pallone. Thank you very much.
    [The prepared statement of Mr. Prybicien follows:]

    [GRAPHIC] [TIFF OMITTED] T8130A.013
    
    [GRAPHIC] [TIFF OMITTED] T8130A.014
    
    [GRAPHIC] [TIFF OMITTED] T8130A.015
    
    [GRAPHIC] [TIFF OMITTED] T8130A.016
    
    [GRAPHIC] [TIFF OMITTED] T8130A.017
    
    Mr. Pallone. Dr. Brenner.

                STATEMENT OF JOEL BRENNER, M.D.

    Dr. Brenner. Good afternoon, Chairman Pallone and 
Representative Pascrell. I appreciate the opportunity to 
testify today at this field hearing regarding the sports-
related concussions in children and adolescents. My name is 
Joel Brenner and I am proud to represent the American Academy 
of Pediatrics. I'm currently the Chair Elect at AAP consult for 
sports medicine and fitness. As a pediatrician and board 
certified in primary care sports medicine, adolescent medicine 
and pediatrics, I am intimately aware of the dangers sports-
related concussions have on our youth.
    In my clinical practice I often see 10 to 12 new contusion 
cases among school athletes each week. This fall as student 
athletes return to the playing fields, we must remember the 
unique medical needs of children and take appropriate action to 
minimize the harmful impact of concussions on our nation's 
youth.
    Sports-related concussions pose a unique risk to the 
pediatric population. Children and adolescents are still 
undergoing a significant period of brain development, and thus 
are even more susceptible to the damaging effect of a 
concussion.
    Children and adolescents are also particularly high risk of 
experiencing second impact syndrome, a condition that occurs 
when an athlete who has sustained an initial head injury 
sustains a second head injury before the symptoms associated 
with the first have fully cleared.
    While sports-related concussions are increasingly common in 
youth and high school sports, the long-term effects of this 
traumatic brain injury are still relatively unknown. We are 
certain, however, that concussion is not a condition that can 
just be toughed out, but rather a serious medical injury of 
unique concerns to child and adolescents. Age-appropriate 
concussion prevention and management techniques are vital to 
reducing the risk of serious long-term injury and complications 
among athletes.
    The number of children visiting the emergency departments 
for concussion is on the rise. A study published this month in 
AAP's professional journal Pediatrics found that 50 percent of 
pediatric concussions seen in the ER were sports-related. 
Younger children between the ages of 8 and 13-years accounting 
for 40 percent of this sports-related concussion.
    Concussions represent as estimated 8.9 percent of all high 
school athletic injuries. However, data are significantly 
lacking on concussions in grade school and middle school 
athletes.
    Concussions can cause symptoms that interfere with 
children's school performance, social and family relationships 
and participation in sports. Signs and symptoms of concussions 
typically resolve in seven to ten days in a majority of cases. 
However, for some athletes recovery may take weeks or months or 
longer.
    Identifying and diagnosing the signs and symptoms of 
concussion may involve several different tools and approaches 
depending on the nature of injury. There is no single best 
method for diagnosing; rather a comprehensive evaluation may 
require a range of approaches from a sidelines physical exam 
and comprehensive history to neuropsychological testing.
    Any pediatric or adolescent athlete who is suspected of 
sustaining a concussion should be evaluated by a health care 
professional. A neurological exam, inquiring into the symptoms 
and assessment of cognitive functions should be performed. If a 
concussions is identified the athlete should be removed from 
the remainder of the practice or game on that day.
    Neuropsychologic testing has become commonplace in the 
evaluation of an athlete with a concussion. Such testing 
provides a means to an objection measure of brain function. 
Neuropsychological testing is one of several tools in the 
concussion assessment, but does not independently determine 
whether an athlete has experienced a concussion or when the 
athlete may safely return to play. The goal of managing a young 
athlete with a concussion is to hasten recovery by ensuring 
that the athlete is aware of and avoids activities and 
situations that may slow recovery.
    The American Academy of Pediatrics supports the 
establishment of federal guidelines for concussion management, 
and believes that prevention, identification, treatment, and 
management of concussions in children and adolescents is of the 
utmost importance. We commend Representative Pascrell for 
introducing the H.R. 1347.
    The lack of comprehensive national concussion management 
guidelines jeopardizes children's health and has prompted the 
AAP to take action to address this deficiently. AAP's Council 
on Sports Medicine and Fitness has devised a comprehensive 
clinical report on sports-related concussion in children and 
adolescents. The is the first and only clinical report on 
sports-related concussion that addresses solely to children and 
adolescents, and this was just released last week. It is our 
expectation that his clinical report and these recommendations 
can serve as starting points for the development of federal 
standards and contribute to the national dialogue on pediatric 
concussion management. The top four recommendations are:
    Number one, pediatric and adolescent athletes should never 
return to play while symptomatic at rest or with exertion. 
Athletes also should not be returned to play on the same day of 
concussion, even if they become asymptomatic.
    Two, any pediatric or adolescent athlete sustaining a 
concussion should be evaluated by a health care profession, 
ideally a physician, with experience in concussion management 
and should receive medical clearance before returning to play.
    Three, athletes with a concussion should rest, both 
physically and cognitively, until their symptoms have resolved 
both at rest and with exertion. Teachers and school 
administrators should work with students to modify workloads to 
avoid exacerbation of symptoms.
    Four, neuropsychological testing objective data to athletes 
and their families following a concussion. Neuropsychological 
testing is only one tool in the complete management of a 
sports-related concussion. It does not alone make a diagnosis 
or determine when return to play is appropriate.
    The American Academy of Pediatrics believes these 
recommendations and guidance should be included in any federal 
action on this issue. It should also be noted that timely 
medical attention for any athlete suspected of sustaining a 
concussion is important, and the presence of an Athletic 
Trainer for sideline evaluation is ideal. Even with the 
promising advances of computerized neuropsychological testing 
and recent investments in prevention, early diagnosis, and 
treatment of concussions in young athletes, requiring all 
schools and other organizations that sponsor or conduct high 
risk activities to have an Athletic Trainer on site, would not 
only improve concussion management but also help decrease other 
morbidities at the same time.
    AAP is grateful for the Committee's continued commitment to 
child health, and we hope that you will consider us a partner 
in efforts to reduce the occurrence of sport-related 
concussions in our nation's youth.
    I thank you for the opportunity to testify.
    Mr. Pallone. Thank you, Dr. Brenner.
    [The prepared statement of Dr. Brenner follows:]

    [GRAPHIC] [TIFF OMITTED] T8130A.018
    
    [GRAPHIC] [TIFF OMITTED] T8130A.019
    
    [GRAPHIC] [TIFF OMITTED] T8130A.020
    
    [GRAPHIC] [TIFF OMITTED] T8130A.021
    
    [GRAPHIC] [TIFF OMITTED] T8130A.022
    
    [GRAPHIC] [TIFF OMITTED] T8130A.023
    
    [GRAPHIC] [TIFF OMITTED] T8130A.024
    
    [GRAPHIC] [TIFF OMITTED] T8130A.025
    
    [GRAPHIC] [TIFF OMITTED] T8130A.026
    
    [GRAPHIC] [TIFF OMITTED] T8130A.027
    
    [GRAPHIC] [TIFF OMITTED] T8130A.028
    
    Mr. Pallone. Mr. Oben.

                    STATEMENT OF ROMAN OBEN

    Mr. Oben. Good afternoon. Representative Pascrell, Chairman 
Pallone. I like to thank you guys for your time in inviting me 
to share my testimony today.
    I'm currently an Account Executive for CBS Outdoor. I co-
host the Giants pre- and post-game radio show on WFAM, as well 
as the Big East Game of the week on SNY Network and I'm an 
adjunct professor at Fairly Dickinson University sports 
administration department.
    I like to thank you guys again and thank the panel, the 
second panel for your expert testimony and witnesses.
    I want to talk about my career briefly that began in West 
Africa where I was born and started as a 14-year-old playing 
football for the first time at Gonzaga High School in 
Washington, DC where I grew up. I was considered what you would 
call a late bloomer. I was 5,11", 190 as a freshman. Two years 
later I was 6,4" 230 pounds, so I think God was good to me by 
giving me great size. But I eventually became a heavily 
recruited individual and collegiate athlete, and I accepted an 
academic athletic scholarship at the University of Louisville.
    Now, many are familiar with the recent movie the Blind 
Side. I was moved to the left tackle position and I played the 
blind side well in college, became an all American and played 
for 12 years in the NFL and also won--was a starting left 
tackle for the Super Bowl Champion Tampa Bay Buccaneers in 
2002. Along with the highs of winning and competition in the 
NFL, unfortunately have seen many peers and teammates alike, 
suffer the physical and emotional damages caused by multiple 
concussions. These stories range from waking up to finding 
yourself in an examination room and forgetting how you got 
there, to not remembering your home address and your cell phone 
number.
    Now, while I may not have an expert degree in any 
scientific field, I do consider myself an expert at what it 
takes to play at the highest level. I had seven knee surgeries, 
two reconstructive foot surgeries, and at 35 being told that 
you have the physical body of someone 30 years your age, I do 
consider myself an expert participant in sports.
    Now, I believe that football is the greatest game in the 
world because it's the greatest team sport in all sports. One 
person can't score 40 points and carry the team. Everyone has 
to do everything right on every play for a play to be 
successful. We also learn how to exert our physical limitations 
pass normal human capacity. Playing with a monster of no pain 
no gain and toughing it out.
    Now a father of two elementary age children who are very 
active in sports, Tae Kwon Do, flag football, soccer, 
wrestling, lacrosse, basketball, and this is all in the same 
season, by the way. I've seen children train their bodies 
physically at an earlier age, and play at the youth sports 
level at a much higher degree of competition than the backyard 
ball that we all grew up playing. For example, my 9-year-old 
son can do 30 push-ups. I don't think I could do 30 until I was 
at least a sophomore in high school. So athletes have gotten 
bigger, faster and stronger at earlier ages. Unfortunately, 
this bigger, faster, stronger youth athlete creates a situation 
where the physical impact and the trauma is much more severe 
than it was when I grew up.
    I must add that one thing you cannot physically develop is 
the brain, the skull that protects it. The spine, the joints 
and the ligaments.
    Now, I don't speak for the NFL as a whole, but we're well 
aware that the NFL has worked tiredlessly and has done an 
excellent job in partnering with the CDC to improve the 
awareness, diagnosis and treatment of concussions. For example, 
if a person suffers a concussion or what's deemed as an injury, 
if the doctor isn't clear you can go back and play no matter 
what the coach says, no matter how you feel or your assistant 
coach, you're not going back to play. That wasn't the case my 
last year in the NFL, and for a lot of the many men that I saw 
and played with, peers, teammates who proudly carried the NFL 
shield.
    Now, we're on the wake of another anniversary of 9/11. And 
I remember that year the NFL was the first organization to step 
up and say that we weren't going to play the game because of 
the tragedy that happened to the lives that affected our 
nation.
    Now, some of these trends in professional sports in a whole 
are followed by colleges, high schools and youth sports. I 
think the same trend and necessary education on the youth level 
of competitive sports will help eliminate the long history of 
poor education and information on the concussion issue. The 
ConTACT Act H.R. 1347 is a necessary legislation that is needed 
to educate and set guidelines for concussion management for all 
school sponsored supporting events so that we can create a safe 
environment for youth sports.
    I want to thank again the Subcommittee. I would openly 
welcome any questions that you guys may have for me at this 
time. Thank you.
    Mr. Pallone. Thank you very much and thank you also for 
being here today and for your long involvement with this issue. 
We're going to go right to the questions. As I said, we go back 
and forth between myself and Congressman Pascrell. I'll start.
    I have to ask everyone of you something, but I don't know 
if we have time for that. Let me start with Nikki Popyer.
    You talked about at one point, you referenced, I couldn't 
help but emphasize, you know, given the economic climate that 
we face today that there have been so many cutbacks at the 
state and local level in school programs, you know, in funding. 
I don't know that that is necessarily true of Marlboro, I'm not 
trying to suggest it with the situation in Marlboro. You know, 
I think that that's a very good point because, you know, when 
we talk about this federal legislation that my colleague 
Congressman Pascrell introduced, one of the questions is, you 
know, he proposed these various grant programs and, you know, 
one question comes up is do we need this, do we need these 
additional things, and I think that that's a very important 
point, which is right now we're in a situation where a lot of 
schools are cutting back. If they start eliminating, you know, 
prevention programs for concussion, then it may very well be 
that the federal government needs to step in, particularly now 
given that. I don't know how, you know, wide spread your 
knowledge is about that, but I mean, is that happening, do you 
see that happening at all?
    Ms. Popyer. Well, I mean I think making the grant to have 
the impact test or any kind of those neuro cognitive testing is 
like--you need to have them. It's like sending a football 
player without a helmet, sending a soccer player without shin 
guards. I think it's just another piece of equipment protective 
gear for the kids. And I think that if there's enough money to 
get a grant for this, then I think it's definitely necessary 
and that it's going to help people and protect them from 
becoming like me.
    Mr. Pallone. I mean, I know that some schools are actually 
eliminating athletic programs altogether, but I mean, it might 
even be worse if they have the programs but they eliminate all 
the prevention, you know, type activities that you're talking 
about in the process, which I guess is something that could do. 
Anybody else want to comment on that, if you would. I mean, I 
don't know that we know that it's necessarily happening, but I 
think it's a fear.
    Mr. Prybicien. I mean, you bring up some very good points. 
I think there's a combination of things going on. I'll speak 
specifically of New Jersey. A combination of athletic programs 
being eliminated, freshman programs being eliminated, athletic 
trainer positions being cut as well as, you knows some things 
called where there's like pay to play, which are paying for 
services to be able to play in sports. But, you know, the point 
that you bring up that is very good, is the fact of, you know, 
if sports aren't eliminated, eliminating some of the tools, 
whether it be concussion education, baseline testing, removal 
of an athletic trainer, any of those things that are viable 
assets to the prevention of concussions or other sports-related 
injuries, you know, is probably worse than eliminating sports 
altogether.
    Mr. Pallone. Well, you know, we passed a Bill and, you 
know, I know this is a much larger level, but we passed a Bill 
as Congressman Pascrell knows, we went back in August to just 
pass that Bill and gave money back to the state so they can 
rehire teachers. And I think that is what we're going to see 
more and more, the federal government has to step in and help 
on some of these programs whether it's what we're talking about 
today or other things because the state and local cutback 
significantly.
    Let me go back to you Mr. Prybicien. Both Ms. Boyd and you, 
I think almost everyone of you talked about the--well, actually 
maybe let me ask Ms. Boyd this, but every one of you brought up 
this issue of the second impact syndrome and the cumulative 
impact. I think one of you actually said that there are a 
significant number of deaths that occur from second impact, you 
know, with brain injury. I didn't hear, maybe you can tell us a 
little bit more about specifically what we can do with that. I 
know in Mr. Pascrell's Bill he talked about different grant 
programs, the baseline testing, you know, post-injury testing. 
What's the best way to deal with the second impact? I mean, 
that's kind of been the most disturbing thing to me today to 
hear you talk about that.
    Ms. Boyd. The second impact syndrome can result in 
catastrophic brain injury. What that translates into, if you're 
talking about a high school student who survives a second 
impact syndrome, you're talking about a young person who is in 
the process of developing his own identity, making plans for 
the future, moving on to college or to a training, and all of 
that instantaneously ends with that onset of a significant 
severe brain injury that causes life long difficulties.
    Mr. Pallone. But what I'm saying is, what can we do with 
these training programs and other testing to try and prevent 
that, is that where the trainer comes in.
    Ms. Boyd. Well, the trainer but it's everyone else. The 
trainers are the best educating staff in the school when it 
comes to these kinds of injuries. They are at, you know, the 
top of the game when it comes to who knows what's going on with 
concussions in that school environment. School nurses take a 
close second. But my point is that the results of second impact 
syndrome need to be known. People don't recognize that brain 
injury is a number one killer and disabler of youth in America. 
People do not know that. Just like we didn't know how 
significant concussions were and how much they affected our 
youth. This is critical.
    I mean, the personal side of it for a family and an 
individual who has a life long disability is one thing, but our 
entire country pays the price for this. It's not just one 
individual's quality of life or their future. We know that kids 
experience concussions differently, but we respond to children 
with concussion differently. If you have a 7-year-old who has a 
concussion and it's out is sorts and wants to sleep all the 
time and is acting out because the lights are bothering them 
and the sound is bothering them and they can't focus in school, 
they're probably sent for time out instead of for cognitive 
rehabilitation. And this the issue, is that we needs to 
understand what a brain injury is. We need to know what a 
concussions. Parents needs to know.
    One of the things that concerns me are parents and families 
who have no health insurance. They have no health insurance and 
the coach sends them out of the game, and now you have a family 
who sees that their child, their athlete is not themselves. Is 
there the presence of a concussion or isn't there, and they go 
to the family doctor and the family doctor evaluates to the 
best of their knowledge base and clears them to play in a week. 
How do we know that that student is still safe. Well, baseline 
testing certainly will help with that. It does not diagnose a 
concussion. It tells you when there's a reliable change in the 
baseline score, that's what baseline testing will do. It will 
tell you watch out, keep your eye on this child. You don't know 
how significant a concussion is until that child is healed. 
There is no way to say this is a grade one concussion or a mild 
concussion until all of the symptoms are gone.
    Mr. Pallone. Let's do this. Bill, I'm going to yield to you 
and then maybe we'll have a second round.
    Mr. Pascrell. Mr. Oben, I wanted to ask you this, from the 
beginning of going into the National Football League to the 
time--and after your 12 years were up and you decided that you 
were going to go do something else, did you see any appreciable 
change in how the league addressed the issue of concussion, 
could you be as specific as possible.
    Mr. Oben. I think what I noticed in my last season there 
was definitely one thing, there was a change of philosophy. We 
had a lot more old school coaches, quote unquote, tough it out, 
grind it out, no pain no gain, what I said earlier. As I a got 
further in my career a lot of the younger coaches were of a 
different philosophy and there are a lot of players that I knew 
about, I'm sure you guys have known, Wayne Gwebeck, for 
example. And there's a guy like that on every team, there's two 
or three guys like that on every team. You play hard and you go 
out and play with game because you know if you don't go in 
there's somebody to replace you. They're always asking guys to 
replace you. But I think as a whole the players, the players 
union they got a lot smarter and they put a lot more on the NFL 
to do a little bit more than what they were doing when 
concussions.
    Mr. Pascrell. When you see the players and what's happened 
with to them in their late 40s and early 50s and when you talk 
to these guys it's pitiful how this was able to go on. I mean, 
this didn't just happen with one blow. This did not just happen 
in one particular situation. This was, to go back to what Nikki 
just talked about, a cumulative situation. And these things all 
add up, don't they Nikki.
    Ms. Popyer. Yes.
    Mr. Pascrell. When we say a cumulative, what do you mean by 
that.
    Ms. Popyer. Well, when I started getting concussions in 
seventh grade, I didn't really know what was going on and it 
was just a little headache and then I was fine in a few days. 
But as I got more of them everything seemed worse and it's 
because my brain wasn't completely healed from the first time I 
got a concussion. So, each one builds it up and makes it all 
worse, and now I'm stuck with a 24, 7 headache and these 
problems in school and in life in general.
    Mr. Pascrell. But we've listened to doctors today and they 
say that when you're younger you're more vulnerable, and yet 
when you see what's happened to NFL players, some of them 
played three, four years, some of them played ten years, 12 
years, and they can't control themselves. I mean, I'm not 
exaggerating, am I.
    Mr. Oben. Not at all.
    Mr. Pascrell. It's sad, it really is. And I played 
football, all kinds of sports. In my neighborhood if you came 
out when you were hurt you were a sissy, which was pretty 
stupid, wasn't it.
    Ms. Popyer. Definitely. I know as an athlete that I wanted 
to get on the court no matter what. I loved basketball and I 
would risk anything for it until we actually found the right 
doctor, that's Dr. Jill Brooks who's a neuropsychologist. She 
was the first one to shut me down. But hearing that as an 
athlete, we just want to get back on the court and do what we 
love and I mean it's hard, but it's the better thing to do.
    Mr. Pascrell. Why did you listen to her and there were 
other folks who told you before that to see what kind of----
    Ms. Popyer. I mean, I went to plenty doctors and no doctor 
ever told me to stop playing, no one told me the effect that 
I'll have. I went to the same doctor at the emergency room 
several times and almost every time he said sit out one to two 
days, you're fine, you got your bell rung, just go back in 
there, you're fine. No one ever told me that once you get 
another one it's going to be worse and it's going to be harder 
to recover, but. I mean, the knowledge we have now definitely 
will help a lot of people.
    Mr. Pascrell. Did any doctor or professional ever tell you, 
Nikki, that every time you get a concussion, and there's all 
different kinds of concussions, some are very mild, some are 
very severe, did any doctor ever tell you that a concussion is 
brain damage.
    Ms. Popyer. No, not one until Dr. Jill Brooks had ever said 
anything about a concussion really being serious.
    Mr. Pascrell. What is your response to that, Dr. Brenner.
    Dr. Brenner. I think it's very unfortunate and that's 
something that we've been targeting. Every time I see an 
athlete the very first thing that I ask them is do they know 
what a concussion is, that's the very first thing that we talk 
about is that a concussion is a brain injury. Often times the 
parents and the athletes are not aware of that. Luckily as we 
get more education out there more and more ascribe. I think 
it's important for people to understand there have been studies 
that looked at youth and the term concussion versus mild 
traumatic brain injury. People were admitted to the hospital 
with the term concussion were released sooner than those 
releases from a minor traumatic brain injury. So, it's 
important for people to understand that a concussion is a brain 
injury versus none.
    Mr. Pascrell. Thank you.
    Ms. Boyd, we talked about this before. What is your take, I 
want you to just start? I mean, you talk about education a lot 
and how parents need to be educated. Let me tell you something, 
congressmen needed to be educated. They didn't know what I was 
talking about ten years ago. I just about knew what I was 
talking about. How do we get to the next level so that people 
can make sense of what they're hearing and perform?
    Ms. Boyd. You know, education begins when it's initiated 
sometimes, you know, in the neighborhood and sometimes from our 
legislators. So, I think that initiating legislation certainly 
brings awareness right up. Just like the media has done and the 
NFL. We have them to thank for so much more awareness about 
concussion. The education needs to go--we need to get a 
complete education, just like we did with seat belts. Seat 
belts came about when I was a kid. My mother went out there and 
she cut them right out of car because nobody was going to tell 
her to wear a seat belt or what to do in the car. Well, we have 
that same mind set with people who are working with our young 
athletes and working with children who fall down off their--or 
ride their scooters without a helmet. So, the education needs 
to be comprehensive. We need to understand what concussion is, 
we need to know how to recognize it and then we need to know 
what to do about it.
    At the Brain Injury Association we have information and 
family help lines. People will call and say my son was 
diagnosed with a concussion, where do you go, what do you do 
for treatment. We need to know as a society, we need to 
understand that the concussion is a brain injury. If you have a 
concussion you need to see a specialist, your concussion needs 
to be monitored. So, our family physicians, our pediatricians 
need to know how to do that. They need to know the questions to 
ask. They need to get involved in these kids lives. If there's 
a significant concussion that is not healing, the symptoms 
continue and continue, then as in Nikki's story it's probably 
necessary to see a specialist.
    A neuropsychologist is a specialist who specializes in 
brain behavior relationships. Rather than doing a quick 
neuropsychological testing, would probably do a more extensive 
battery of tests to understand how the brain is working.
    Mr. Pascrell. Let me ask the question, Mr. Prybicien, you 
see these kids everyday and you deal with them, you deal with 
the students, you deal with their parents, the trainer, what is 
your take on what you just heard and how do you address it; and 
B of that is, does the school ever talk to you about liability.
    Mr. Prybicien. Well, the school hasn't talked about 
liability, okay, that's number one. How do I address it, one 
thing from hearing everybody today I want to say concussions 
can take many forms, okay. Concussion education to me consists 
of proper handouts to parents, it could be watching a DVD or 
video. When we talk about that is, all my athletes, you know, 
the great initiative in New Jersey, all of our student athletes 
see a video. It doesn't matter what sport their playing. You 
know, my tennis team, my cross country team, they all so a 
video on concussions, science and physical and education 
because, you know, you can have a tennis player, which we just 
saw in the U.S. Open recently, who slipped and had a fall 
earlier in the day and then suffered concussion type like 
symptoms during the match. So, concussion doesn't have to occur 
specifically during this sporting activity. So, you're 
educating as many people as you can.
    If you're educating a student, athlete on concussion once 
they've had a concussion, you're educating them too late. The 
education needs to be out there at the forefront prior to them 
ever getting a concussion.
    The same thing goes on with me and my parents. We've heard 
the word, you know, mild concussion. I never use that word mild 
when I'm discussing a concussion with parents. They'll say, 
well, is it grade one, grade two, grade three, is it mild, is 
it severe. I said, we'll have that discussion when your son and 
daughter's signs and symptoms are gone because you can't 
discuss those things. So, you know, to me education takes the 
form of all the things I talked about, whether it be mass 
media, whether it be DVD, videotape, handouts. Conversations go 
a long way. And still in the world that we live in today with 
blogs and internet, you still can't replace the face-to-face 
contact in talking to parents. Getting them the proper referral 
to the proper physicians, which are concussion specialists just 
like--or pediatricians who are going through the proper 
education with concussion management. All those things are 
important in the overall education of concussions.
    Mr. Pascrell. Thank you.
    Mr. Pallone. I just have brief follow-up on Mr. Prybicien 
and then I'll go back to you, Bill. I think a lot of the 
questions I had were answered with Mr. Pascrell.
    Mr. Prybicien, you mentioned that the state of New Jersey 
seemed to be pretty good with--did they actually mandate 
athletic trainers, how does it work in New Jersey?
    Mr. Prybicien. We don't mandate. Probably about 10 to 15 
years ago the Department of Education in New Jersey recognized 
athletic training as one of its certificate degrees within the 
school system which helped tremendously with that high 
percentage. I will say----
    Mr. Pallone. The percentage was like 80, 90 percent.
    Mr. Prybicien. 86 percent of all of our high schools which 
conduct an interscholastic athletic--and have an athletic 
trainer and 93 percent of our public schools. That's from 2009 
the Athletic Trainers Society of New Jersey took a survey and 
that's where we came up with those numbers. We're trying to 
maintain those numbers. As we talked about here we're in 
unexpected economic times, like unprecedented economic times, 
so athletic trainers are, you know, feeling the crunch just 
like a lot of professionals are in the school system.
    Senator Paul Sarlo in New Jersey is actually trying to do a 
requirement for any school that has an interscholastic sport in 
New Jersey has an athletic trainer at the school. He introduced 
that legislation on the New Jersey Senate side about a year 
ago. So, we're trying to stay active. We're trying to keep that 
number as high as possible. But, I guess to go back to your 
question, it's just with the Department of Education 
certificate that helps us keep our numbers so high.
    Mr. Pallone. So, it's not mandated now.
    Mr. Prybicien. It's not mandated, no.
    Mr. Pallone. And then if they have somebody at the school, 
are they necessarily participating in all the sports or just 
some schools.
    Mr. Prybicien. Well, for myself, for example, it's a 
crossover, you know, most athletes play multiple sports.
    Mr. Pallone. It's part of like their health curriculum or--
--
    Mr. Prybicien. What we do is, I am at the school, I provide 
injury evaluation, injury rehabilitation, I'm at practices, I'm 
on site. So if, you know, I watch for a mechanism of injury, 
that's where we may be a little bit different from a physician. 
We're on the sidelines, so we see a certain hit maybe take 
place in a game or certain fall. We can go over and request the 
coach take that athlete out, we can take a look at them, you 
know, when they come to the sideline. You know, a lot of times 
I'll just walk back and forth on the sidelines. You're looking 
for a certain look in somebody's eyes, you're looking for a 
disorientation. We are a health care provider that probably, 
you know, we have our education, but we also develop 
relationships, you know. Maybe Roman could speak of it, of his 
relationship with his athletic trainers on the next level. We 
develop relationships with our patients and that develops a 
trust where a lot of times, you know, we may be the only person 
that they feel comfortable coming to and telling us about their 
signs and symptoms.
    Mr. Pallone. Maybe I'll go to Mr. Oben. I guess what I'm 
trying to say is, you talk about this play through the pain 
and, you know, how we had to reverse that culture. So I mean, 
are we going to do it by, you know, putting something in the 
health curriculum, are we going to do it by having more 
athletic trainers, how are we going to do it.
    Mr. Oben. I think definitely on the youth level I can speak 
with the--I'm very anti, I call the volunteer dad area, where 
you have a lot of dads who just want to coach their kids. In 
all the sports I named in my testimony I didn't name tackle 
football because I don't trust the system that exist. So, I 
think we have to streamline the process of the type of 
education they're getting. There has to be one way to give them 
this education and make sure it's equally balanced across the 
board for just this education on concussions and how it's 
treated. If one kid is tough and the other kid out there wants 
to play, all of that has to be the same, it all has to be the 
same, so. I won't let my kids play football until probably 
junior high school because there's a reason why they play 
sports. Learning to nurture your skills, your ability to have 
fun, to set goals, and that's why we play sports.
    Million dollar contracts are not at stake when you're 11-
years-old. I think when you're on the professional athlete 
level it's a different protocol I think you have to go through, 
but the NFL is just taking the charge. Like I said, I remember 
after 9/11 just for an example, the NFL taking charge, when you 
can go back and play and when you can't, and I think that 
definitely has to trickle down to the youth level as well.
    Mr. Pallone. Did you want to add something.
    Mr. Prybicien. One other thing that I always say to my 
student athletes as well my parents. You know, we live in a 
society where we're very, you know, we want to push, we want to 
get to the next level, we want to do everything we can either 
as a parent for our children or if you're a student athlete you 
want to compete. You know, Nikki mentioned quite a few times in 
her testimony today how she wanted to compete. When I work with 
student athletes, that's who I want to treat too. I want to 
treat that athlete that wants to get back on the field because, 
you know, different from concussions when I deal with a lot of 
other injuries that I'm rehabilitating, that person who wants 
to get back on the field is coming in, they're doing their 
rehabilitation, they're doing everything, but when I get to 
concussions I always use a different line with my student 
athletes. And I say, you have to understand we're doing what's 
best for you. I don't expect you to like my decision of not 
returning to play or the doctor's decision of not returning to 
play, but all I ask is you respect it and to understand that 
we're doing what's best for you for your entire life, not 
necessarily for a game or championship or anything like that.
    Mr. Pallone. Dr. Brenner.
    Dr. Brenner. I just wanted to point out, you know, I think 
New Jersey has to be commended that they have such high 
involvement of athletic trainers, having close to 90 percent, 
but it's really more of anomaly nationwide with 42 percent 
nationwide of schools having athletic trainers. There are high 
school athletes right now and middle school athletes who are 
playing football on Friday nights without any health care 
providers on the sidelines. And so, you know, I think one thing 
that has to be addressed is having an athletic trainer, someone 
on the sidelines for all these events.
    The other thing that has to be addressed is we've been 
talking about school athletes, but from the study that came out 
last week, 75 percent of 8- to 13-year-olds who had a sports-
related concussion, 75 percent were from recreational athletes, 
50 percent of the 14- to 19-year-olds who were recreational 
athletes. So we have to do something positive for the 
recreational athletes. So that needs to be included in any type 
of mandate.
    Mr. Pallone. I appreciate this. I don't like to bring in 
my--sometimes I don't like to bring in my own kids when I talk 
about these things because it gets personal, but I can't help 
in this case because, you know, my son was all excited as a 
freshman that he was going to play football, and I never played 
football and I wasn't much of an encouragement at all, I have 
to be honest with you. Then he was injured, and it wasn't a 
concussion though, but he was injured and the doctor 
recommended he not play anymore. He was devastated. The doctor 
didn't say absolutely, but that was his recommendation, but to 
me I said no, you're not going to do it. So then, the coaches 
asked him if he wanted to be a manager and he ended up managing 
the JV team last year and now this year he's managing the 
varsity team, he's a sophomore. You know, what you were saying, 
I think Mr. Oben said or Mr. Prybicien, you know, he just loves 
it, he loves managing the team. It's the whole idea of a team 
sport and being involved even though he can't play he is 
getting just as much out of it. Maybe I say that. He probably 
would disagree with me.
    But, you know, I really--I don't know exactly how to say 
this. But I just really appreciate the fact that all of you not 
only take an interest in this issue and deal with student 
athletes, but also appreciate kind of the psychology of kids 
because I think that even as a parent I don't necessarily 
understand but I think you do, and that's really great.
    My colleague.
    Mr. Pascrell. Thank you, Mr. Chairman. I hope you leave 
today with a better understanding of the legislation is 
secondary, but a better understanding of what the culture is 
about viewing these kinds of injuries and how we may be 
changing, and that's because we've seen changes in any one 
state or in professional football.
    Several weeks ago, Mr. Chairman, there was a large meeting 
at Bloomfield High School. Ms. Boyd was there. We had about 600 
students, student athletes, coaches, trainers, some doctors. 
There's such a hunger for information about this. It reminded 
me of what happened in 2003 and 2004, 2005 when a group of us 
returned from Iraq and Afghanistan several times and viewed our 
soldiers at a time when the military did not have a very sound 
protocol of dealing with TBI or posttraumatic stress disorders. 
It was disheartening. It was disheartening to see how they were 
treated back here in the states as well throughout. Not that it 
was any conscious effort to make things difficult, but people 
didn't know what to do, literally did not know what to do. They 
were not prepared for this kind of injury. Preparation. We 
heard that word mentioned many, many times today. So, the 
preparation is significant.
    And what's happened since 2004, 2005 there was no money in 
the budget. I mean, we didn't pay for the war but we didn't pay 
for the aftermath either. What happened was that a few of us on 
both sides, all sides, so some good, I think, came out of this 
war, believe it or not. And that is we stroke the fire to get 
more money into research and development. And more has been 
done on the development of the brain in the last five years 
that I've seen because we are saving soldiers lives that would 
have been dead five years ago. No question in my mind about 
that.
    So, I mean, you may say this is apples and oranges, we're 
talking about kids. We're basically talking about the same 
thing, that is preparing them, training them, making sure we 
know what to do. God forbid if there's an injury, a concussion. 
So, I am very hopeful, I'm very hopeful. I'm an eternal 
optimist that we can do much better now that we brought the 
military and the civilians together to respond. And all of 
these organizations that I talked to you about are doing a hell 
of a job day in and day out, they're on the case. We had a 
great panel, I don't say that often. I usually tell people 
exactly how I think. We had a great panel. You've been very, 
very helpful, hopefully to the Chairman as well. I know that he 
listened very carefully. I want to get this legislation passed 
before we get out of here. I'm going to do the best that we 
can, right, Frank. That is my closing comment.
    Mr. Pallone. I will say that we are going to try. And I 
know that, you know, we don't have a lot of time left, but 
we're certainly going to try. And certainly I agree with 
Congressman Pascrell, this has been a very good hearing and 
it's a very important issue and I want to commend him, you 
know, for taking such an interest in the issue.
    Now, you said that you're the eternal optimist. I didn't 
know that, that's kind of interesting. And then I forget what 
the other thing was that you said you were.
    Mr. Pascrell. I'm a lot of things.
    Mr. Pallone. You definitely were very aggressive in making 
sure that we had this hearing today, and I'm sure you'll be 
equally aggressive in trying to get the Bill passed.
    I want to thank you, all of you for coming here today. I 
thought it was a very worthwhile hearing on a very important 
issue.
    Let me just in closing I just want to remind everybody that 
we could submit additional questions to you in writing, which 
we would, obviously, like you to answer, and that could even 
come from, you know, other members of the Subcommittee that are 
not here today. Usually within ten days the clerk submits those 
to you, so if you don't get them within ten days you probably 
won't get them. I just want you to be aware that there is 
additional written questions that could come forward. And, 
again, thank you again.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
